DOE/IG-0497




  INSPECTION                   INSPECTION OF CONCERNS RELATING
                                    TO THE MANAGEMENT OF
    REPORT                           THE SAVANNAH RIVER
                                      OPERATIONS OFFICE
                                         LEARN/POWER
                                     INFORMATION SYSTEM




                                        MARCH 2001




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
     OFFICE OF INSPECTIONS
                             U.S. DEPARTMENT OF ENERGY
                                   Washington, DC 20585



                                         March 13, 2001


MEMORANDUM FOR THE SECRETARY

FROM:          Gregory H. Friedman /s/
               Inspector General

SUBJECT: INFORMATION: Report on “Inspection of Concerns Relating to the
          Management of the Savannah River Operations Office LEARN/POWER
          Information System”

BACKGROUND

The Office of Inspector General (OIG), U.S. Department of Energy (DOE), received information
that the Savannah River Operations Office (Savannah River) continued to develop, implement,
and market a human resource information system, despite the establishment of a Departmental
information system entitled the “Corporate Human Resource Information System” (CHRIS).

We recently sent you our audit report of the Department’s “Corporate and Stand Alone
Information Systems Development” (DOE/IG-0485). In that audit, we concluded that the
Department has spent at least $38 million developing duplicative information systems. Also,
despite efforts to implement several corporate-level applications, duplicative and/or redundant
computer systems exist or were under development at virtually all organizational levels within
the Department. Further, many organizations continued to invest in custom or site-specific
development efforts that duplicated corporate systems. This was despite Departmental guidance
to the contrary. This inspection report compliments our audit by addressing one significant site-
specific development effort and by providing additional details concerning challenges facing the
Department’s implementation of corporate-level applications.

RESULTS OF INSPECTION

•   The OIG found that from Fiscal Year 1998 through April 2000, Savannah River authorized
    the expenditure of over $989,000 to develop, upgrade, and implement the Savannah River
    human resource information system, essentially duplicating and weakening DOE’s corporate
    effort.

•   The OIG concluded that Department officials responsible for CHRIS have supported
    continual spending on non-corporate systems, thereby defeating the purpose of establishing
    CHRIS as the Department-wide system.
                                             2

We provide management with recommendations that, if implemented, would strengthen the
corporate initiative and end spending on duplicate systems. Management’s comments were
responsive to the recommendations.

Attachment

cc: Office of the Deputy Secretary
    Administrator, National Nuclear Security Administration
    Acting Assistant Secretary for Environmental Management
    Acting Director of Management and Administration
    Acting Chief Information Officer
    Chief Financial Officer
    Manager, Savannah River Operations Office
INSPECTION OF CONCERNS RELATING TO THE
MANAGEMENT OF THE SAVANNAH RIVER OPERATIONS
OFFICE LEARN/POWER INFORMATION SYSTEM


TABLE OF
CONTENTS



              Overview

              Introduction and Objective………………………………… 1

              Observations and Conclusions……………………………      1


              Details of Finding…… ……………………………….…… 2

              The Corporate Training Effort……………………………..   2

              The Corporate HR System………………………………... 2

              Weakening the Corporate Effort………………………….. 3

              Headquarters Initiatives…………………………………….. 4


              Recommendations………………………………….…….. 7


              Management Comments………………….……………… 7


              Inspector Comments……………………………………… 8


              Appendix

              Scope and Methodology…………………………….……… 9
Overview
INTRODUCTION                     The Office of Inspector General (OIG), U.S. Department of Energy
AND OBJECTIVE                    (DOE), received information that the Savannah River Operations
                                 Office (Savannah River) continued to develop, implement, and
                                 market a human resource information system, entitled the Local
                                 Educational and Administrative Requirements Network
                                 (LEARN)/Primary Organizational Web-Based Employee Records
                                 (POWER), 1 despite the establishment of the Corporate2 Human
                                 Resource Information System (CHRIS).

                                 The objective of this inspection was to review whether the actions
                                 of Savannah River resulted in weakening the corporate training
                                 initiative, and eventually the DOE corporate CHRIS initiative, by
                                 authorizing expenditure of almost $1 million to continue
                                 development, implementation, and marketing of POWER.

OBSERVATIONS                     The OIG found that from Fiscal Year 1998 through April 2000
AND CONCLUSIONS                  Savannah River authorized the expenditure of over $989,000 to
                                 develop, upgrade, and implement POWER; essentially duplicating
                                 and weakening DOE’s corporate effort. In addition to Savannah
                                 River’s actions, the OIG found that Department officials
                                 responsible for CHRIS have supported continual spending on
                                 non-corporate systems, thereby defeating the purpose of
                                 establishing CHRIS as the Department-wide system. The merits of
                                 the POWER application were not evaluated as part of this review.




  1
    LEARN refers to the system during the time period from 1990 to fall 1997, while POWER refers to the same
   system which was reprogrammed, placed on a database, and called POWER from fall 1997 to the present.
  2
    For purposes of this report the term “corporate” and “Department-wide” are interchangeable.


Page 1                                                                                            Overview
Details of Finding
The Corporate        On May 3, 1995, the Secretary of Energy issued a report entitled
Training Effort      “Saving Dollars and Making Sense,” the Strategic Alignment Issue
                     Paper AD-9, “Training.” AD-9 addressed establishment of a
                     corporate training approach and a Training Reengineering Team.
                     Between May 1995 and August 1997, Savannah River placed an
                     official on the Department’s Training Reengineering Team as a
                     key member.

The Corporate        OMB Circular No. A-130, Revised, “Transmittal Memorandum
HR System            No. 3,” issued February 8, 1996, states that when an Agency is
                     acquiring information technology it shall: “(b) Acquire off-the-
                     shelf software from commercial sources, unless the cost
                     effectiveness of developing custom software to meet mission needs
                     is clear and has been documented.” The purchase of the
                     PeopleSoft Human Resources Management System (renamed
                     CHRIS by DOE) on September 26, 1996, was intended to be
                     consistent with Office of Management and Budget guidance and
                     the Clinger-Cohen Act of 1996/Information Technology
                     Management Reform Act (Clinger-Cohen Act) for purchasing
                     commercial off-the-shelf items.

                     CHRIS was planned as an integrated human resource information
                     system in which separate functions, such as personnel and training,
                     use the same database. A DOE Headquarters report, dated
                     August 9, 1996, entitled “Strategic Information Management
                     Project Results and Business Case Analysis,” found that six
                     distinct Savannah River human resources information systems,
                     including LEARN, could be replaced by a commercially
                     off-the-shelf application, CHRIS.

                     The implementation of CHRIS was the subject of a September
                     2000 OIG Office of Audit Services audit of the Department’s
                     “Corporate and Stand Alone Information Systems Development”
                     (Report IG-0485). In that audit, the OIG concluded that the
                     Department has spent at least $38 million developing duplicative
                     information systems. Also, despite efforts to implement several
                     corporate-level applications, duplicative and/or redundant
                     computer systems exist or were under development at virtually all
                     organizational levels within the Department. Further, many
                     organizations continued to invest in custom or site-specific
                     development efforts that duplicated corporate systems. This
                     occurred despite Departmental guidance to the contrary.

                     In response, the Chief Information Officer generally concurred
                     with the report’s recommendation to require program and field




Page 2                                                           Details of Finding
                   offices to adhere to the Department’s information technology
                   architecture.

Weakening the      In 1990, Savannah River designed a training information system
Corporate Effort   called the Local Educational and Administrative Requirements
                   Network (LEARN). LEARN was developed as a non-integrated
                   training information system and was later shared with other DOE
                   field and program offices.

                   During 1995 and 1996, Savannah River was involved in the
                   Department’s efforts at establishing a corporate approach to
                   training. When CHRIS was purchased by DOE, Savannah River
                   sent representatives to CHRIS training implementation meetings.
                   However, once DOE Headquarters determined not to use the
                   LEARN design or build a bridge between the two systems, and
                   CHRIS software would be used for development of the
                   departmental training system, Savannah River no longer sent
                   representatives to CHRIS meetings. Instead, in the fall of 1997,
                   Savannah River reprogrammed LEARN, placed it on a database
                   duplicating the CHRIS system database, and renamed the system
                   POWER. Savannah River has continued to develop POWER,
                   integrating a personnel function to the training function.

                   In August 1997, the Department revised its “Corporate Information
                   Management Guidance.” The guidance states that “Individual
                   Departmental Elements should not commit the expenditure of
                   funds for the upgrade of existing or development of new human
                   resource information systems without close consultation with and
                   agreement by the Deputy Assistant Secretary for Human Resources
                   and the Chief Information Officer.”

                   In memoranda dated November 25, 1997, and January 7, 1998, the
                   Department clearly indicated the decision had been made to use
                   CHRIS for the training module. In our judgment, this corporate
                   decision made continued expenditures for a POWER training
                   module inconsistent with the Department’s approach. At the time,
                   at least one Savannah River official had the same view. We found
                   that on January 2, 1998, a former Savannah River training official,
                   wrote that due to duplication and resource constraints, the “entire
                   direction and timing of this vast initiative [POWER]. . . to
                   re-engineer HR processes at SR is wrong.”

                   The Department training community held a meeting in February
                   1998. A Savannah River official stated that it was understood that
                   “a corporate training information management system was under
                   development.” However, Savannah River sent a representative to



Page 3                                                          Details of Finding
               the February 1998 meeting “to discuss the status of the corporate
               wide training system . . .[and] provide a demonstration of
               POWER’s capabilities.” According to a former Rocky Flats Field
               Office training official, Savannah River was hoping to convince
               the training community to integrate POWER into the CHRIS
               module. After the meeting it was clear to Savannah River that the
               decision to use the CHRIS Training Administration Module was
               “apparently already made.” Savannah River “decided not to have
               a representative” on the CHRIS Training committee. Savannah
               River claimed that it “was in process of establishing the new
               integrated training and HR organization and did not have available
               resources to support the committee.”

               Savannah River’s Information Management Technology Division
               (IMTD) was created in June 1996 as a result of the Clinger–Cohen
               Act, which directed Federal agencies, among other things, to use
               commercial off-the-shelf products. An IMTD official explained
               that system applications that are developed for a specific purpose
               are funded through the Savannah River office developing the
               system. IMTD interfaces with that office to ensure that application
               development of a system provides the service for which it was
               intended. However, IMTD did not interface with the Savannah
               River office that developed POWER. The OIG determined that
               IMTD was not aware of POWER’s development until February
               1999 when IMTD assistance was needed for network security.

               Another IMTD official said that IMTD oversees Savannah River
               contractor activities in computer information technology except for
               contractors working for the Savannah River office responsible for
               Human Resources. This IMTD official said that in November
               1999, he told a Savannah River official that POWER duplicated
               the functionality of other systems purchased for the Department
               and he was concerned that POWER was in conflict with the
               Clinger-Cohen Act. The IMTD official said the Savannah River
               official assured him there was no conflict with the Clinger-Cohen
               Act because POWER did not duplicate CHRIS, and POWER was
               funded from training funds.

Headquarters   The success of the initial phase of CHRIS implementation was
Initiatives    achieved through the support and joint efforts of program and field
               human resources community offices. However, the OIG was told
               that completion of CHRIS has been difficult due to inconsistent
               business practices and technology challenges of 20 field and 25
               Headquarters offices. Additionally, CHRIS officials informed us
               they realize that offices may need to continue their local automated
               systems until the CHRIS system can provide services needed. The



Page 4                                                      Details of Finding
         OIG notes that this stance by CHRIS officials was taken in the
         “Corporate Information Management Guidance,” which allowed
         offices to continue use of local systems, but discouraged spending
         funds on upgrading existing or developing new systems.

         However, in August 1999, officials from the DOE Headquarters
         and officials from Savannah River agreed that Savannah River
         would not market POWER and there would not be an interface
         between POWER and CHRIS. Following that meeting, Savannah
         River continued to develop human resource functions in POWER.
         Additionally, Savannah River demonstrated POWER to the Office
         of Personnel Management and to the Savannah River contractor as
         a “Single-source, integrated Personnel and Training information
         system.”

         On March 3, 2000, officials from Headquarters made a formal
         request to Savannah River, “We hope [emphasis added] you will
         begin to work with us . . . by immediately taking the following
         steps . . . . Suspend any further development or enhancements of
         POWER to provide your site with added cost savings and/or
         avoidance.”

         However, subsequent to the March 3, 2000, attempts to curtail
         POWER, on March 9, 2000, a Headquarters CHRIS official,
         commented to management that POWER’s new personnel benefit
         statement had not been a function of POWER prior to February
         2000. Additionally, Savannah River had violated the agreement
         with Headquarters by not clearing or coordinating new
         developments within POWER through the CHRIS Board of
         Directors. On March 21, 2000, a Headquarters CHRIS official
         informed management that “All these integrated HR functions and
         features currently operating and under develop [sic] in POWER
         duplicate CHRIS. Permitting (or acquiescing to) the growth and
         expansion of POWER contradicts the Secretary’s management
         efficiencies initiative to eliminate HR redundant systems.”
         Additionally, since March 2000, the plans to further develop
         POWER have continued. As late as August 2000, Savannah River
         announced plans for POWER to contain an “electronic signature”
         function.

         Two Savannah River officials have stressed that POWER is neither
         a duplication nor in competition with CHRIS. However, the OIG
         obtained correspondence claiming that POWER had developed
         certain functions ahead of the CHRIS system. This suggests that
         POWER may be competing with CHRIS.




Page 5                                               Details of Finding
         The OIG notes that in accordance with the Clinger-Cohen Act, the
         Department’s Chief Information Officer does have statutory
         authority to advise the Secretary of Energy that information
         systems throughout DOE, including POWER, be modified or
         terminated. Instead of initiating action to cease development of
         POWER, Headquarters officials have approved the Albuquerque
         Operations Office request to upgrade LEARN to POWER,
         essentially supporting a non-corporate system and allowing further
         expenditures for POWER. These actions serve to negate the
         Department’s goal for a Department-wide system and the
         elimination of redundant systems.




Page 6                                               Details of Finding
RECOMMENDATIONS                 We recommend that the Office of the Deputy Secretary3 of Energy:

                                1. Direct all Headquarters and field offices to stop further
                                   development or upgrades of human resource systems in light of
                                   the ongoing implementation of CHRIS.

                                2. Direct Savannah River Operations Office to provide any and
                                   all programming and related information on POWER that is
                                   requested by the Office of the Chief Information Officer and/or
                                   Director of Management and Administration.

                                We recommend that the Manager, Savannah River Operations
                                Office:

                                3. Ensure that the Information Management Technology Division
                                   interfaces with Savannah River business/system owners to
                                   provide an information technology perspective for future
                                   business/system development efforts, as required by the
                                   Clinger-Cohen Act.

MANAGEMENT                      Management concurred with all recommendations in the draft
COMMENTS                        report. Additionally, for each recommendation, the Director of
                                Management and Administration (MA) provided a consolidation of
                                comments from the offices to which the draft report was addressed.

                                Regarding Recommendation 1, “MA, in conjunction with the CIO,
                                will also provide to the Deputy Secretary recommendations on
                                establishing a formal process for: (1) approving office-specific
                                applications that meet local human resource (HR) business
                                requirements if such applications will not be provided for under the
                                CHRIS project objectives for the HR community, managers and
                                employees, and (2) planning the phase-out of existing HR systems
                                based on the proposed goals and objectives of CHRIS and
                                assessing the applications software investment if such systems are
                                not immediately discontinued. In addition, MA will establish a
                                mechanism to assure that Headquarters and Field organizations
                                participate in the identification and planning of systems to address
                                needed HR functionalities.”

                                Regarding Recommendation 2, “DOE Management agrees with
                                obtaining the information on POWER. Within 45 days of the final
                                Inspection Report or upon receipt of the information from SR,

  3
   Department management advised the OIG that the Deputy Secretary was the official responsible for action on
  this recommendation and that, as such, the recommendation should be directed to the Deputy Secretary.
  Because a Deputy Secretary had not been appointed at the time of our final report, we have redirected this
  recommendation to the Office of the Deputy Secretary.


Page 7                                              Recommendations/Management Comments
            whichever is earlier, officials from MA and the CIO offices will
            contact SR for an initial discussion about the programming
            developed. In addition, we will initiate a site visit to review the
            features of the program and pursue obtaining the programming for
            features currently not available in CHRIS, as well as all
            documentation and specifications that would be required to
            perform an analysis of the system and its potential use.”

            Regarding Recommendation 3, “SR Manager concurs and has
            already taken action to assure its Information Management and
            Technology Division (IMTD) interfaces with SR business/system
            owners for future business/systems development efforts. SR
            issued the Information Management Program Manual (SRM
            200.1.1A) on September 24, 1999. The manual specifies the
            Director, IMTD, as SR’s Chief Information Officer (CIO) with
            primary responsibility to provide authoritative advice and
            assistance to the Manager, SR, and other senior managers to ensure
            SR information technology is acquired and information resources
            are managed consistent with the policies and procedures of the
            Clinger-Cohen Act/Information Technology Management Reform
            Act. The manual also establishes a formal Information
            Management and Technology Steering Committee with the
            responsibility to review all business/systems development efforts
            prior to initiation. Based on this corrective action, we recommend
            this item be closed.”

            In addition to the specific comments addressing the
            recommendations, “The SR Manager has indicated that he has
            taken actions to sensitize his subordinate managers and their staff
            to the issues and concerns discussed in the body of the OIG report.
            He has stressed to all senior staff the importance of their awareness
            of corporate initiatives and the need to assure that their efforts fully
            support and do not duplicate or hinder such initiatives.”

INSPECTOR   Management’s comments were responsive to the
COMMENTS    Recommendations. The OIG has incorporated management’s
            general comments into the report where appropriate.




Page 8                                    Management/Inspector Comments
Appendix
SCOPE AND     The Office of Inspector General, U.S. Department of Energy,
METHODOLOGY   received information that the Savannah River Operations Office
              continued to develop, implement, and market a human resource
              information system, entitled the Local Educational and
              Administrative Requirements Network/Primary Organizational
              Web-Based Employee Records, despite the establishment of the
              Corporate Human Resource Information System.

              In conducting this inspection, we identified and reviewed
              applicable Federal and DOE regulations. We interviewed current
              and former DOE officials and employees. We reviewed key
              records applicable to this inspection.

              This inspection was conducted in accordance with Quality
              Standards for Inspections issued by the President’s Council on
              Integrity and Efficiency.




Page 9                                              Scope and Methodology
                                                                    IG Report No. DOE/IG-0497

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
